OIG Audit Report GR-50-06-004

Bureau of Justice Statistics Awards for Census of State and Local Law Enforcement Agencies and National Survey of Prosecutors, Administered by the National Opinion Research Center, Chicago, Illinois

Audit Report GR-50-06-004


May 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of two cooperative agreements awarded by the U.S. Department of Justice, Bureau of Justice Statistics (BJS), to the National Opinion Research Center (NORC).  NORC was awarded the cooperative agreements (hereinafter referred to as the grants), totaling $907,979, to fund the following activities:  (1) conduct a census of state and local law enforcement agencies, and (2) conduct a national survey of prosecutors.  As of 
September 24, 2005, the grantees records showed a total of $715,655 in grant-related costs, of which $595,296 had been reimbursed by the Office of Justice Programs (OJP).1
Our audit included a review of NORCs accomplishment of grant objectives and compliance with four essential grant conditions:  (1) grant expenditures, (2) grant drawdowns, (3) budget management and control, and (4) grant reporting.  We reviewed the grant accounting records to determine if reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Specifically, we tested direct costs such as consultant fees, travel, telephone, reproduction expenses, and supplies totaling $51,218, as well as salary costs of $39,856.  In addition, we confirmed that, in total, the correct amounts of fringe benefit expenses ($103,504), computer network expenses ($39,099), and General and Administrative expenses ($218,145) were charged to the grants.  In total, we reviewed $451,821, or about 63 percent, of the $715,655 expended as of September 24, 2005.  Our audit revealed that the grantees controls over grant activities and expenditures were adequate.  However, our audit revealed isolated instances of unallowable direct and indirect expenditures being charged to the grants; these transactions totaled $11,295.  We also identified weaknesses in grant reporting.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.  We discussed the results of our audit with officials from NORC and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from NORC and OJP, which are included in this report as appendices III and IV, respectively.



Footnote

The BJS is a component within OJP.